No..

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN E. WALKER,
Petitioner,
vs.
UNITED STATES OF AMERICA, and All
Actors, Agents, and Elected Officials thereof;
STATE OF CALIFORNIA, and All, Actors,
Agents, and Elected Officials Thereof.
Respondents.
I,.Steven Walker, do swear or declare that on August 20, 2021, as required by Supreme
Court Rule 29,1 have served the enclosed CORRECTED MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPIS and CORRECTED PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressedto each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue
N.W. Washington, D.C. 20530-0001

Attorney General of the State of California
Office of the Attorney General
600 West Broadway, Room 6293
San Diego, CA. 92101-8893

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021.

